FOR IMMEDIATE RELEASE                                                March 15, 2013
Media Contact: 202-565-3908

           MEXICAN PRODUCE COMPANY OWNER SENTENCED
FOR MAKING A FALSE STATEMENT TO A FINANCIAL INSTITUTION INSURED BY
                    THE U.S. EXPORT-IMPORT BANK

WASHINGTON, D.C., March 15, 2013 – The Office of Inspector General (OIG) for the
Export-Import Bank of the United States (Ex-Im Bank) announced today that the
owner of a produce company in Hermosillo, Sonora, Mexico, was sentenced today
for making a false statement to Frost National Bank, concerning loans insured by Ex-
Im Bank.

Gilberto Salazar-Escoboza, 49, was sentenced by Chief Judge Fred Biery in U.S.
District Court in San Antonio, Texas, to $500,000.00 in fines and twelve months of
supervised release. Salazar pleaded guilty on August 13, 2012, to one count of
making a false statement to a financial institution. Salazar was arrested on July 14,
2012, in California as he entered the United States from Mexico. According to an
indictment filed on June 20, 2012, in the Western District of Texas, San Antonio,
Texas, Salazar was originally charged with three counts of bank fraud in connection
with Ex-Im Bank insured loans. Since his plea in August 2012, Salazar has paid back
approximately $2.64 million in restitution to Ex-Im Bank, Frost National Bank, and a
private insurance agency.

According to court documents, Salazar, a Mexican citizen, was the owner of three
businesses identified as Empacadora Fruitcola Santa Ines, S.A. de C.V., La Costa
Distribuciones Comerciales S.A. de C.V., and Videxport S.A. de C.V. located in
Hermosillo, Sonora, Mexico. All of these businesses are large produce and fruit
companies which obtained loans from Frost National Bank for the purpose of
purchasing U.S. manufactured equipment from U.S. suppliers. Frost Bank insured
some of those loans with Ex-Im Bank. Salazar admitted that in February 2009, he
knowingly made a false statement and report to a financial institution, when he
submitted five checks to Frost National Bank purporting to show the payment of
invoices to a supplier of goods, when in truth and fact and as Salazar well knew,
such checks were never delivered to the supplier.

The case was prosecuted by the U.S. Attorney’s Office for the Western District of
Texas, San Antonio Division. The case was investigated by the Ex-Im Bank Office of
Inspector General and Homeland Security Investigations in El Paso.
Ex-Im Bank, the official credit agency of the United States, is an independent
executive agency that helps create and maintain U.S. jobs by filling gaps in private
export financing at no cost to American taxpayers. Ex-Im Bank provides a variety of


                  811 Vermont Avenue, NW Washington, D.C. 20571
financing mechanisms, including working capital guarantees, export credit
insurance and financing to help foreign buyers purchase U.S. goods and services.

Ex-Im Bank OIG is an independent office within Ex-Im Bank. The OIG receives and
investigates complaints and information concerning violations of law, rules or
regulations, fraud against Ex-Im Bank, mismanagement, waste of funds, and abuse of
authority connected with Ex-Im Bank's programs and operations.

Additional information about the OIG can be found at http://www.exim.gov/oig/.
Complaints and reports of waste, fraud, and abuse related to Ex-Im Bank programs
and operations can be reported to the OIG hotline at 888-OIG-EXIM (888-644-3946)
or via email at mailto:IGhotline@exim.gov.

                                       ###




                  811 Vermont Avenue, N.W. Washington, D.C. 20571
